December 23, 2010

MAURA ROBINSON
VICE PRESIDENT, PRICING

JOSEPH D. MOELLER
MANAGER, REGULATORY REPORTING AND COST ANALYSIS

SUBJECT: Audit Report – Workshare Discounts Exceeding Avoided Costs
        (Report Number MS-AR-11-001)

This report presents the results of our audit of Workshare Discounts Exceeding Avoided
Costs (Project Number 10RG015MS000). Our objective was to determine whether U.S.
Postal Service workshare discounts exceeding avoided costs were properly justified.
This self-initiated audit addresses strategic risk. See Appendix A for additional
information about this audit.

The Postal Service provides mailers with workshare discounts in the form of reduced
postage rates for presorting, pre-barcoding, handling or transporting mail. The Postal
Service credits workshare discounts with stimulating mail volume growth, enabling it to
streamline its workforce and infrastructure, reducing mailing costs, and improving
service. The Postal Service workshared over 80 percent of its mail volume in fiscal year
(FY) 2008, resulting in an avoidance of $14.8 billion in costs and providing $15 billion in
discounts to mailers.1

The Postal Accountability and Enhancement Act of 20062 (the Postal Act) requires that
workshare discounts not exceed the costs the Postal Service avoids as a result of
workshare activity unless:

        The discount is associated with a new postal service, a change to an existing
         postal service or a new workshare initiative related to an existing postal service;
         and necessary to induce mailer behavior that furthers the economically efficient
         operation of the Postal Service. The Postal Service must phase out the amount
         of the discount exceeding avoided costs over a limited period of time.

        Reducing or eliminating the discount would impede the efficient operation of the
         Postal Service.

1
    OIG report: Economic Analysis of the Postal Service’s Workshare Discounts, October 14, 2009.
2
    Public Law 109-435, December 20, 2006.
Workshare Discounts Exceeding Avoided Costs                                                           MS-AR-11-001



      The amount of the discount above costs avoided is necessary to mitigate rate
       shock and will be phased out over time.

      The discount is provided in connection with sub-classes of mail consisting
       exclusively of educational, cultural, scientific or informational value.

Postal Regulatory Commission (PRC) Annual Compliance Determinations reported 30
workshare discounts exceeding avoided costs for FY 20093 and 35 for FY 2008.

Conclusion

Justifications for 19 workshare discounts that exceed avoided costs by approximately
$104 million were not supported by detailed documentation. Additionally, although the
educational, cultural, scientific or informational exception justifies discounts that exceed
avoided costs, the Postal Service did not support the reasonableness of these
discounts. The Postal Service does not have a documented process outlining how it
reaches pricing decisions and does not always have sufficient documentation to support
the amount of workshare discounts provided to mailers. According to Postal Service
management, reliable quantitative data supporting justifications are also not always
available or necessary.

According to management, they do not document the price decision-making process,
but make decisions after extensive discussions with parties both inside and outside the
Postal Service.

In addition, Postal Service cost avoidance models may not accurately reflect avoided
costs for workshared mail. This occurs because the Postal Service relies on cost
models and incurred costs to estimate avoided costs and has not conducted a
comprehensive study to determine the accuracy of its cost avoidance estimates and to
recommend improvements to the models. Some stakeholders say that cost avoidance
estimates do not capture all worksharing related cost savings, leaving workshare
discounts too low; and others state that the discounts are too high because mailers
workshare the mail with the lowest processing cost, raising the Postal Service’s average
mailpiece processing costs used to calculate avoided costs. This increases the Postal
Service’s avoided cost calculations and, in turn, workshare discounts.

Justification for Workshare Discounts Exceeding Avoided Costs

The Postal Service did not properly support justifications for 19 of 30 discounts that
exceeded avoided costs in FY 2009 and 23 of 35 discounts that exceeded avoided


3
  Thirteen of the 30 discounts in the February 10, 2009, Notice Market-Dominant Price Adjustment exceeded avoided
costs. Of the remaining 17 discounts, 13 were either set at or below avoided costs and four were not estimated at the
time of the price adjustment. On March 16, 2009, the PRC authorized the discounts, but stated that PRC findings are
provisional and subject to subsequent review.




                                                          2
Workshare Discounts Exceeding Avoided Costs                                                          MS-AR-11-001



costs in FY 2008. Appendix B contains a detailed list of the discounts that exceeded
avoided costs for FYs 2009 and 2008. See Table 1:

       Table 1: Reasons Cited for Workshare Discounts Exceeding Avoided Costs

                                                    FY 2009                              FY 2008
                                          Total       Not Properly             Total       Not Properly
                                          Cited         Justified              Cited         Justified
    Impede Efficient Operation             21              18                    7               7
    Necessary to Mitigate Rate
                                             1                 1                  5                 5
    Shock
    Educational, Cultural,
    Scientific or Informational              8                 0                 10                 0
    Value
    No Justification Provided                0                 0                 10                10
    Not a Workshare Discount                 0                 0                  3                 1

    Total discounts
                                            30                19                 35                23
    exceeding avoided costs

For 18 of the 21 FY 2009 discounts that exceeded avoided costs justified under the
“impede efficient operations” exception, the Postal Service did not identify specific
operations that would be impeded, or quantify the potential impact of setting workshare
discounts equal to or less than avoided costs. For the three remaining discounts
justified under the “impede efficient operations” exception, we found that documentation
supported only one discount that exceeded avoided costs4. For the other two discounts,
the Postal Service asserted that the rules governing worksharing did not apply to cost
and rate differences between single piece letters and First-Class™ Mixed Automated
Area Distribution Center (AADC) Letters. The Postal Service also asserted that
Standard Saturation5 mail should not be subject to the workshare discount provisions of
the Postal Act.

The PRC established a docket6 to review those issues. Subsequently, the PRC issued
Order 536,7 which invalidated the existing benchmark for First-Class Mixed AADC
letters and temporarily allowed the Postal Service to continue this discount until an
appropriate benchmark is identified. The order also determined that Standard Saturation
mail occupies a unique market and is not subject to the workshare discount provisions
of the Postal Act.



4
  Standard Mail 5-Digit Machinable Parcels.
5
  Saturation mail must meet the density requirement of at least 90% or more of the active residential addresses or
75% or more of the total number of active possible delivery addresses on each carrier route receiving this mail.
6
  Docket No. RM2009-3, Notice of Proposed Rulemaking on Application of Workshare Discount Rate Design
Principles.
7
  Order No. 536: Order Adopting Analytical Principles Regarding Workshare Discount Methodology, September 14,
2010.




                                                         3
Workshare Discounts Exceeding Avoided Costs                                                MS-AR-11-001



Further, the Postal Service cited the rate shock exception without providing any
quantitative analysis to support the effect on mailers of lowering workshare discounts to
avoided cost. In addition, the Postal Service had no plan, schedule or timetable for
phasing out discounts that exceeded avoided costs justified under the rate shock
provision.

The Postal Service also did not document the methodology used in determining the
reasonableness of the amount of eight discounts that exceeded avoided costs justified
under the educational, cultural, scientific or informational exception. For example, the
passthroughs8 of educational, cultural, scientific or informational discounts ranged from
105.4 percent to 1,000 percent in FY 2009. The Postal Service does not provide any
data, studies, analyses or projections to evaluate whether the amount of the discounts
are reasonable or necessary. We discussed the matter with management who pointed
out that PRC regulations do not require the Postal Service to report its methodology for
setting the size of these workshare discounts.

Unsupported discounts exceeding avoided costs occur because the Postal Service has
not documented the process it uses to reach its pricing decisions and does not maintain
sufficient documentation to support these discounts. Although the Postal Service
described the reasons for the discounts that exceeded avoided costs in the Annual
Compliance Report (ACR) and other information provided under the ACR docket, the
Postal Service does not support its position with quantitative data. Management stated
that they use a qualitative approach in setting rates. The Postal Service makes pricing
decisions after extensive discussions with stakeholders from within and outside the
Postal Service, but does not believe that quantitative data to support the amount of the
discounts was always reliable, available or necessary.

The maximum rate adjustment the Postal Service is authorized to make in any year is
limited to the rate of inflation. This price cap, which applies to each class of mail, is
based on the change in the Consumer Price Index for All Urban Consumers (CPI-U)
over the most recent available 12-month period. The Postal Service is allowed to bank
any unused rate adjustment authority for up to 5 years and use it for future rate
increases as long as the unused authority does not exceed the CPI-U by 2 percent. The
Postal Service does not have sufficient unused cap authority as of the last price
adjustment to fully reduce the 19 unsupported workshare discounts totaling $104
million. The Postal Service can however adjust prices without impacting the price cap.
For example, the pricing schedules submitted by the PRC’s Public Representative9
demonstrated that the Postal Service can fully reduce the $37 million of First-Class
Mail® (FCM) workshare discounts exceeding avoided costs and stay within the CPI
price cap.




8
    A passthrough is a workshare discount expressed as a percentage of the avoided cost.
9
    PRC Docket RM2009-3, Filing identification 63255, May 26, 2009.




                                                          4
Workshare Discounts Exceeding Avoided Costs                                                            MS-AR-11-001



On July 6, 2010, the Postal Service requested an exigent rate increase.10 The Postal
Service proposed to reduce 13 of the 30 FY 2009 discounts exceeding avoided costs to
levels at or below the avoided costs. However, the PRC denied this request on
September 30, 2010, and the Postal Service is appealing the decision.

Until the Postal Service adequately supports justifications for discounts exceeding
avoided costs, there is an increased risk that some mailers benefit from discounts at the
expense of other mailers. In addition, discounts exceeding avoided costs may result in
higher mail processing costs and inefficient mailer processing decisions.

We recommend the vice president, Pricing:

1. Prepare and maintain data, analyses or other documentation to properly support the
   amount of discounts that exceed avoided costs when claiming exceptions specified
   in the Postal Accountability and Enhancement Act of 2006. Alternatively, limit
   proposed discounts to 100 percent of avoided costs at the next market dominant
   price adjustment.

2. Document the methodology and decision making process used to determine the
   reasonableness of discount amounts that exceed avoided costs justified under the
   Postal Accountability and Enhancement Act of 2006 educational, cultural, scientific
   or informational exception.

Management’s Comments

Management agreed with recommendation 1 and disagreed with recommendation 2.
Management stated they intend to comply with the PRC’s rules and decisions that
provide direction and guidance on the justifications for workshare discounts that exceed
avoided costs. They further stated that the Postal Service provided justifications for the
discounts that did exceed avoided cost and that the PRC had determined those
discounts were consistent with the statute. Concerning recommendation 2,
management stated that under the provisions of the Postal Accountability and
Enhancement Act of 2006, the Postal Service is not required to provide justification for
workshare discounts that exceed avoided costs for mail consisting exclusively of mail
matter of educational, cultural, scientific, or informational value. See Appendix C for
management’s comments.

Evaluation of Management’s Comments

The OIG considers management’s comment responsive to recommendation 1. We held
a meeting with management on December 7, 2010, to obtain further clarification
regarding management’s response to recommendation 1, and determined management

10
  A rate increase above the rate of inflation. The Postal Act only allows exigent rate increases for market dominant
products under extraordinary or exceptional circumstances. The PRC must determine that extraordinary or
exceptional circumstances exist before an exigent rate increase can go into effect.




                                                          5
Workshare Discounts Exceeding Avoided Costs                                                         MS-AR-11-001



does plan to maintain data, analyses, or other documentation to properly support the
amount of discounts that exceed avoided costs. FY 2009 was the second year the
Postal Service submitted price adjustments under the Postal Act of 2006. We
encourage the Postal Service to improve the process continuously so that the
availability of data, analysis, and other documentation will become less dependent on
PRC requests for support.

We consider management’s response to recommendation 2 to be non-responsive.
Management has chosen not to document the methodology and decision making
process used to determine the reasonableness of discount amounts that exceed
avoided costs because the Postal Act does not require them to do so. Our
recommendation acknowledges that the law allows workshare discounts to exceed
avoided costs for mail matter consisting exclusively of educational, cultural, scientific, or
informational value. However, we believe that documenting the Postal Service
methodology and decision-making process for setting those discounts is important for
transparency and is a prudent business practice. As stated in the report, Postal Service
passthroughs ranged from 105.4 to 1,000 percent in FY 2009, some mailers may
benefit from discounts at the expense of other mailers, and the discounts may result in
higher mail processing costs and inefficient mailer processing decisions. While it is
important for policy makers and stakeholders to know the rationale behind the amount
of these discounts, which exceed avoided costs by $5 million, we do not plan to pursue
recommendation 2 through the formal audit resolution process.

The OIG considers recommendation 1 significant and, therefore, requires concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. This recommendation should not be closed in the follow-up
tracking system until the OIG provides written confirmation that the recommendations
can be closed.

Cost Avoidance Models

Postal Service cost avoidance estimates may not accurately reflect avoided costs for
workshare mail. The Postal Service estimates unit mail processing costs by rate
category using mail flow models which are based on the actual costs incurred, not
avoided, for processing mail. The modeled mail processing costs are adjusted to ensure
consistency with aggregate costs from the Cost and Revenue Analysis (CRA) report.11

Over the years, the PRC has held public hearings with input from the Postal Service
and other interested parties in order to develop and refine methodologies for
determining various worksharing costs. However, stakeholders do not agree whether
current methodologies accurately measure the actual avoided costs of worksharing
mail. For example, stakeholders do not agree on:

11
  The Postal Service annually prepares the CRA report as part of its price setting process. The CRA model the
agency uses to prepare the report uses cost information from the agency’s accounting system and cost allocation
ratios derived from various operational and statistical information sources.




                                                         6
Workshare Discounts Exceeding Avoided Costs                                                              MS-AR-11-001




      What costs should be included or excluded as worksharing costs.
      The benchmarks used to measure cost avoidance.
      Whether cost avoidance models are accurate at a time of declining volume.

The Postal Service uses the cost of non-workshare Bulk Metered First-Class Mail as a
baseline to determine the difference in costs between non-workshare and workshare
First-Class Mail, as required by the PRC. Non-workshare mail tends to be much more
heterogeneous than workshare mail, exhibiting a wide variation of mailpiece
characteristics and, as a result, has significantly higher processing costs than
workshare mail. Since, the average cost of First-Class Mail is higher than the cost of a
mailpiece that is likely to be converted to workshare, the Postal Service uses the cost of
Bulk Metered Mail (BMM) as the piece most likely to be converted to calculate
workshare discounts. However, there is considerable controversy over the
appropriateness of using the BMM benchmark in estimating cost avoidance. The PRC
concluded in Order Number 536 that the BMM benchmark is no longer valid and
opened a docket to establish a new benchmark. See Appendix A for additional
information. Furthermore, the drop in mail volume raises the question of whether the
cost avoidance models are accurate in a period of volume decline. The Postal Service
faces constraints in responding to reduced volume, such as no-layoff provisions in labor
contracts, which could result in excess capacity. Excess capacity can result in increased
total unit costs and workshare discounts that exceed the true cost the Postal Service is
able to avoid.

Although it is difficult to estimate avoided costs, accuracy of cost avoidance estimates is
critical as the Postal Service grants billions of dollars in workshare discounts annually.
In addition, improperly setting discounts conflicts with the efficient component pricing
theory.12 When discounts are set too high, mailers and mail service providers are given
an incentive to perform mail processing functions that the Postal Service could perform
more efficiently. PRC Order Number 537 initiated Docket No. RM2010-13 to
re-examine how the Postal Service models avoided costs. Because this docket will
re-examine workshare cost modeling in detail, we are not making a recommendation
concerning the models.




12
  Under the efficient component pricing theory the Postal Service sets workshare discounts equal to avoided costs.
The Postal Service collects the same unit contribution to institutional costs regardless of whether the mailer or the
Postal Service performs the work. In addition, proponents of efficient component pricing believe that it results in
productive efficiency with the lowest cost provider (Postal Service or mailer) doing the work and this is beneficial to
the economy.




                                                            7
Workshare Discounts Exceeding Avoided Costs                                   MS-AR-11-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Robert Mitchell, director, or me
at 703-248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Paul Vogel
    Joseph Corbett
    Stephen M. Kearney
    Corporate Audit and Response Management




                                              8
Workshare Discounts Exceeding Avoided Costs                                                      MS-AR-11-001



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service began offering workshare discounts in 1976. These discounts are
provided in the form of reduced postage rates to mailers for presorting, pre-barcoding,
handling or transporting mail.

PRC Docket on BMM as Benchmark and Mail Density

In March 2009 the PRC established Docket No. RM2009-3 to examine methodologies
underlying methods for calculating workshare discounts. The Postal Service proposed
workshare discounts for First-Class Mail and Standard Mail that were not based on
established workshare cost avoidance methodologies. For First-Class Mail, the Postal
Service did not use the existing BMM benchmark to calculate avoided costs and for
Standard Mail, the Postal Service did not use the existing methodology based on costs
avoided between Basic and High Density and High Density and Saturation mail. In
September 2010, the PRC issued an order13 invalidating the BMM as a benchmark,
allowed the Postal Service to maintain current First-Class bulk mail rates until the matter
is resolved in a separate PRC docket, and concluded that Saturation Mail is not in a
worksharing relationship with other groups of Standard Mail. In a concurrent order14 the
PRC established Docket No. RM2010-13 to examine new benchmarks for workshared
mail and other issues related to the design of workshare discounts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Postal Service workshare discounts exceeding
avoided costs were properly justified.

To accomplish our objective we reviewed laws, regulations, policies, procedures,
previous audits, and expert studies related to workshare discounts. We interviewed
Postal Service and PRC officials and employee union officials. We reviewed the Postal
Service’s Annual Compliance Reports for FYs 2007, 2008, and 2009; and PRC Annual
Compliance Determination reports and related dockets to evaluate the reasonableness
of Postal Service justifications for discounts exceeding avoided costs. We reviewed
comments to PRC Docket No. RM2009-3 concerning methodologies underlying the
calculations of workshare discounts.

We conducted this performance audit from March through December 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those

13
   Order 536, Order Adopting Analytical Principles Regarding Workshare Discount Methodology, September 14,
2010.
14
   Order 537, Notice of Proposed Rulemaking Concerning the Technical Methods to be Applied in Designing
Workshare Discounts, September 14, 2010.




                                                       9
Workshare Discounts Exceeding Avoided Costs                                   MS-AR-11-001



standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on October 22, 2010, and
included their comments where appropriate.

We assessed the reliability of Postal Service cost and pricing data by evaluating their
cost models and determined the data were sufficiently reliable for the purposes of this
report.




                                              10
    Workshare Discounts Exceeding Avoided Costs                                        MS-AR-11-001



    PRIOR AUDIT COVERAGE

                                                   Final
                                                  Report
   Report Title        Report Number               Date                 Report Results
A Primer on Postal        GAO-03-927          7/31/2003    The U.S. Government Accountability Office
Worksharing                                                (GAO) was asked to provide information on
                                                           the key activities and the rationale for
                                                           worksharing and the legal basis for
                                                           worksharing rates. The report helps
                                                           Congress and others better understand
                                                           worksharing. The report discussed the
                                                           Postal Service’s and the Postal Rate
                                                           Commission’s rationale for worksharing but
                                                           did not assess the benefits they claimed for
                                                           worksharing.
Bound Printed           CRR-AR-08-005         5/9/2008     Some of the supporting documentation that
Matter Workshare                                           management used to develop the Bound
Discounts                                                  Printed Matter (BPM) discounts was old,
                                                           which could have affected the reliability of
                                                           the BPM workshare discount rates. The
                                                           report made two recommendations which
                                                           management agreed with.
Improving Rate            GAO-05-820          7/28/2005    The GAO was asked to (1) describe key
Making Data                                                Postal Service actions that were responsive
Quality through                                            to a 1999 study to improve the quality of
Postal Service                                             ratemaking data and (2) discuss possible
Actions and Postal                                         implications of postal reform legislation for
Reform Legislation                                         ratemaking data quality. The GAO did not
                                                           assess the extent to which the Postal
                                                           Service’s actions affected data quality. The
                                                           Postal Service took several key actions in
                                                           response to the study’s findings. The Postal
                                                           Service reported that these actions
                                                           increased the accuracy and precision of
                                                           ratemaking data. The Postal Service
                                                           disagreed with findings on the ratemaking
                                                           structure, stating the current process has
                                                           worked “remarkably well” and that the
                                                           proposed legislation is unlikely to lead to
                                                           “breakthrough improvements” in the quality
                                                           of its ratemaking data systems without a
                                                           significant increase in costs.




                                                     11
    Workshare Discounts Exceeding Avoided Costs                                       MS-AR-11-001




                                                   Final
                                                  Report
   Report Title        Report Number               Date                 Report Results
Management of           CRR-AR-10-002         3/19/2010    Controls over special studies are generally
Special Studies                                            adequate to ensure that special studies are
                                                           updated with recurring data inputs;
                                                           however, improvements are needed over
                                                           controls to ensure the studies are updated
                                                           with non-recurring financial and operational
                                                           data. We recommended developing a plan
                                                           for timely updating the Postmaster
                                                           Variability Study, identifying non-recurring
                                                           data inputs that should be updated in each
                                                           cost model, and updating the non-recurring
                                                           data inputs or identifying cost-effective
                                                           alternative methods to obtain the necessary
                                                           cost allocation information and updating the
                                                           cost models.
U.S. Postal Service:    GAO-08-1134R          9/25/2008    As worksharing has increased, larger
Progress Made                                              volumes of mail have bypassed most of the
Toward                                                     Postal Service’s processing activities,
Implementing                                               creating excess network capacity.
GAO’s
Recommendations
to Strengthen
Network
Realignment
Planning and
Accountability and
Improve
Communication
First-Class and         MS-AR-10-003          7/20/2010    Workshare discounts for First-Class and
Standard Mail                                              Standard mail presort letters are generally
Workshare                                                  based on current cost inputs; however,
Discounts                                                  some of the inputs have not been updated
                                                           since FY 2005 and may not be
                                                           representative of current operating
                                                           conditions. Postal Service cost models do
                                                           not account for slim-jim letters that the
                                                           Postal Service processes as flats. We
                                                           recommended determining the feasibility of
                                                           updating the 14 First-Class and Standard
                                                           Mail cost inputs that were updated before
                                                           FY 2008 and identifying needed changes to
                                                           the letter cost models due to the volume of
                                                           slim-jims and the percentage processed as
                                                           flats.




                                                     12
   Workshare Discounts Exceeding Avoided Costs                                         MS-AR-11-001




                                                  Final
                                                 Report
  Report Title        Report Number               Date                  Report Results
Assessment of           RARC-WP-10-          7/12/2010    Worksharing dominates business mailings
Worksharing                005                            and is an integral part of the U.S. postal
                                                          system. The Postal Service should evaluate
                                                          the possibility of (1) balancing the value of
                                                          workshared rates against the complexity of
                                                          worksharing (2) strategically using pricing to
                                                          help manage capacity and operations, and
                                                          (3) enhancing earnings by settings
                                                          discounts below avoided costs.




                                                    13
Workshare Discounts Exceeding Avoided Costs                                       MS-AR-11-001



                    APPENDIX B: FYs 2008 AND 2009 WORKSHARE
                      DISCOUNTS EXCEEDING AVOIDED COSTS

                      FY 2008 Discounts Exceeding Avoided Costs

                                                      Exception                    Properly
   Class           Product          Discount                        Passthrough
                                                        Cited                     Justified?
                                                  Not a workshare
FCM Bulk
               Automated Mixed      Barcoding/    discount as
Letters                                                               112.2%         Note 1
               AADC Letters         Presorting    defined in the
Cards
                                                  Postal Act
FCM Bulk
               Automation 3-Digit   Barcoding/
Letters                                           None provided       166.0%           No
               Letters              Presorting
Cards
FCM Bulk
               Automation 3-Digit   Barcoding/
Letters                                           None provided       187.4%           No
               Cards                Presorting
Cards
               Automation ADC       Barcoding/
FCM Flats                                         None provided       157.5%           No
               Flats                Presorting
               Automation 3-Digit   Barcoding/
FCM Flats                                         None provided       150.0%           No
               Flats                Presorting
                                                  Educational,
Periodicals,   Machinable
                                                  cultural,
Outside        Nonautomation        Presorting                        180.1%         Note 2
                                                  scientific, or
County         ADC Flats
                                                  informational
               Machinable
                                                  Educational,
Periodicals,   Nonautomation
                                                  cultural,
Outside        3D/Sectional         Presorting                        136.7%         Note 2
                                                  scientific, or
County         Center Facility
                                                  informational
               (SCF) Flats
                                                  Educational,
Periodicals,   Machinable
                                                  cultural,
Outside        Automation ADC       Presorting                        214.5%         Note 2
                                                  scientific, or
County         Flats
                                                  informational
                                                  Educational,
Periodicals,   Machinable
                                                  cultural,
Outside        Automation           Presorting                        123.9%         Note 2
                                                  scientific, or
County         3D/SCF Flats
                                                  informational
                                                  Educational,
Periodicals,   Nonmachinable
                                                  cultural,
Outside        Automation ADC       Presorting                        106.2%         Note 2
                                                  scientific, or
County         Flats
                                                  informational
                                                  Educational,
Periodicals,
               ADC Automation                     cultural,
Outside                             Barcoding                         223.4%         Note 2
               Letter                             scientific, or
County
                                                  informational
                                                  Educational,
Periodicals,
               3-Digit Automation                 cultural,
Outside                             Barcoding                         649.4%         Note 2
               Letter                             scientific, or
County
                                                  informational




                                                 14
Workshare Discounts Exceeding Avoided Costs                                         MS-AR-11-001



                                                      Exception                      Properly
   Class           Product          Discount                          Passthrough
                                                        Cited                       Justified?
                                                  Educational,
Periodicals,
               5-Digit Automation                 cultural,
Outside                             Barcoding                            366.9%        Note 2
               Letter                             scientific, or
County
                                                  informational
Standard       Automated Mixed
                                    Barcoding     Impede efficiency     -31.9%17         No
Mail Letters   AADC Letters
Standard       Automation 3-Digit
                                    Presorting    None provided          130.4%          No
Mail Letters   Letters
               Nonautomation
Standard       ADC
                                    Presorting    None provided          115.8%          No
Mail Letters   Nonmachinable
               Letters
Standard
Mail High                                         Not a workshare
Density and                                       discount as
               Saturation Letters   Presorting                          -145.0%17      Note 3
Saturation                                        defined in the
Flats and                                         Postal Act
Letters
Standard       Automation ADC
                                    Presorting    None provided          524.2%          No
Mail Flats     Flats
Standard       Automation Mixed
                                    Barcoding     Impede efficiency      227.8%          No
Mail Flats     ADC Flats
Standard       Nonautomation
                                    Presorting    None provided          142.7%          No
Mail Flats     ADC Flats
Standard
Mail Parcels
               BMC Machinable
& Not-Flat                          Presorting    Impede efficiency      106.1%          No
               Parcels
Machinables
(NFMs)
Standard
               5-Digit Machinable
Mail Parcels                        Presorting    Impede efficiency      106.5%          No
               Parcels
& NFMs
               Destination
Standard
               Delivery Unit
Mail Parcels                        Dropship      Impede efficiency      105.9%          No
               (DDU) Parcels,
& NFMs
               NFMs
Standard
Mail Carrier   DDU Parcels          Dropship      Impede efficiency      105.9%          No
Route
Standard
Mail High
Density and
               DDU Parcels          Dropship      Impede efficiency      105.9%          No
Saturation
Flats and
Parcels
Standard
Mail High                                         Not a workshare
Density and    High Density                       discount as
                                    Presorting                           -7.0%17         No
Saturation     Parcel                             defined in the
Flats and                                         Postal Act
Parcels




                                                 15
Workshare Discounts Exceeding Avoided Costs                                     MS-AR-11-001



                                                     Exception                   Properly
   Class           Product         Discount                       Passthrough
                                                       Cited                    Justified?
                                                  Educational,
                                                 cultural,
Media Mail     5-Digit             Presorting                       264.3%         Note 2
                                                 scientific, or
                                                 informational
                                                  Educational,
                                                 cultural,
Library Mail   5-Digit             Presorting                       253.3%         Note 2
                                                 scientific, or
                                                 informational
Bound
               Carrier Route
Printed                            Presorting    None provided      109.0%           No
               Flats
Matter Flats
               Basic, Carrier
Bound
               Route Destination
Printed                            Dropship      Rate shock         140.0%           No
               Bulk Mail Center
Matter Flats
               (DBMC) Flats
               Basic, Carrier
Bound          Route Destination
Printed        Sectional Center    Dropship      Rate shock         107.0%           No
Matter Flats   Facility (DSCF)
               Flats
Bound          Carrier Route
Printed        Parcels/Irregular
                                   Presorting    None provided      109.0%           No
Matter         Parcels and
Parcels        Pieces (IPPs)
Bound
               Basic, Carrier
Printed
               Route DBMC          Dropship      Rate shock         142.0%           No
Matter
               Parcels/IPPs
Parcels
Bound
               Basic, Carrier
Printed
               Route DSCF          Dropship      Rate shock         105.1%           No
Matter
               Parcels/IPPs
Parcels
Bound
               Basic, Carrier
Printed
               Route DDU           Dropship      Rate shock         103.1%           No
Matter
               Parcels/IPPs
Parcels




                                                16
Workshare Discounts Exceeding Avoided Costs                                     MS-AR-11-001



                       FY 2009 Discounts Exceeding Avoided Costs

                                                 Exception                     Justification
  Class           Product          Discount                      Passthrough
                                                   Cited                       Supported?
FCM Bulk       Automation
                                   Barcoding/   Impede
Letters,       Mixed AADC                                          126.1%         Note 1
                                   Presorting   efficiency
Cards          Letters
FCM Bulk
               Automation          Barcoding/   Impede
Letters,                                                           110.0%           No
               AADC Letters        Presorting   efficiency
Cards
FCM Bulk
               Automation 3-       Barcoding/   Impede
Letters,                                                           200.0%           No
               Digit Cards         Presorting   efficiency
Cards
FCM Bulk
               Automation 5-       Barcoding/   Impede
Letters,                                                           108.3%           No
               Digit Cards         Presorting   efficiency
Cards
               Automation ADC      Barcoding/
FCM Flats                                       Rate shock         271.1%           No
               Flats               Presorting
                                                Educational,
Periodicals,   Nonmachinable
                                                cultural,
Outside        Nonautomation       Presorting                      164.4%         Note 2
                                                scientific, or
County         3D/SCF Flats
                                                informational
                                                Educational,
Periodicals,   Nonmachinable
                                                cultural,
Outside        Automation          Presorting                      162.2%         Note 2
                                                scientific, or
County         3D/SCF Flats
                                                informational
                                                Educational,
Periodicals,
               ADC Automation                   cultural,
Outside                            Presorting                      235.3%         Note 2
               Letter                           scientific, or
County
                                                informational
                                                Educational,
Periodicals,
               3-Digit                          cultural,
Outside                            Presorting                      1000.0%        Note 2
               Automation Letter                scientific, or
County
                                                informational
                                                Educational,
Periodicals,
               5-Digit                          cultural,
Outside                            Presorting                      300.0%         Note 2
               Automation Letter                scientific, or
County
                                                informational
               Nonautomation 3-
Standard       Digit                            Impede
                                   Presorting                      169.2%           No
Mail Letters   Nonmachinable                    efficiency
               Letters
               Nonautomation 5-
Standard       Digit                            Impede
                                   Presorting                      101.7%           No
Mail Letters   Nonmachinable                    efficiency
               Letters




                                                17
Workshare Discounts Exceeding Avoided Costs                                                        MS-AR-11-001



                                                         Exception                               Justification
     Class          Product            Discount                             Passthrough
                                                           Cited                                 Supported?
                                                                               Per Postal
                                                                             Service ACR:
                                                                              The avoided
Standard                                               impede                cost rounds to
                Auto ADC Flats        Presorting                                                        No
Mail Flats                                             efficiency              zero, so a
                                                                              passthrough
                                                                               cannot be
                                                                               calculated.
Standard
                Automation 3-                          Impede
Mail Flats                            Presorting                                 107.9%                 No
                Digit Flats                            efficiency
Standard        Nonautomation 5-                       Impede
                                      Presorting                                 114.1%                 No
Mail Flats      Digit Flats                            efficiency
Standard        Automation                             Impede
                                      Barcoding                                  200.0%                 No
Mail Flats      Mixed ADC Flats                        efficiency
Standard
                BMC Machinable                         Impede
Mail Parcels                          Presorting                                 183.5%                 No
                Parcels                                efficiency
and NFMs
Standard        5-Digit
                                                       Impede
Mail Parcels    Machinable            Presorting                                 106.3%                Yes
                                                       efficiency
and NFMs        Parcels
Standard        Mixed BMC
                                                       Impede
Mail Parcels    Machinable            Barcoding                                  184.0%                 No
                                                       efficiency
and NFMs        Barcoded Parcels
Standard        Mixed ADC
                                                       Impede
Mail Parcels    Irregular             Barcoding                                                         No
                                                       efficiency
and NFMs        Barcoded Parcels                                                 184.0%
Standard
                                                       Impede
Mail Parcels    Mixed ADC             Barcoding                                                         No
                                                       efficiency
and NFMs        Barcoded NFMs                                                    184.0%
                                                       Educational,
                                                       cultural,
Media Mail      Basic                 Presorting                                 105.4%               Note 2
                                                       scientific, or
                                                       informational
Standard                                               Impede
                Saturation Letters    Presorting                               -550.0%15              Note 3
Mail Letters                                           efficiency
Standard        High Density                           impede
                                      Presorting                                 -5.0%17                No
Mail Parcels    Parcels                                efficiency
                                                       Educational,
                                                       cultural,
Media Mail      5-Digit               Presorting                                 154.2%               Note 2
                                                       scientific, or
                                                       informational
                                                       Educational,
                                                       cultural,
Library Mail    5-Digit               Presorting                                 145.8%               Note 2
                                                       scientific, or
                                                       informational




15
  Mail processing and unit delivery costs are anomalous and the PRC has directed the Postal Service to review and
improve its costing analysis for these products.




                                                        18
Workshare Discounts Exceeding Avoided Costs                                  MS-AR-11-001



                                               Exception                   Justification
  Class           Product        Discount                  Passthrough
                                                 Cited                     Supported?
Bound          Basic, Carrier
                                              Impede
Printed        Route DBMC        Dropship                     101.4%            No
                                              efficiency
Matter Flats   Flats
Bound          Basic, Carrier
                                              Impede
Printed        Route DBMC        Dropship                     100.5%            No
                                              efficiency
Matter Flats   Parcels/IPPs
Bound
               Basic, Carrier                 Impede
Printed                          Dropship                     104.5%            No
               Route DDU Flats                efficiency
Matter Flats
Bound
               Basic, Carrier
Printed                                       Impede
               Route DDU         Dropship                     104.5%            No
Matter                                        efficiency
               Parcels/IPPs
Parcels

Notes

Note 1 - On September 14, 2010, PRC Order No. 537 established Docket No.
         RM2010-13 to revise the benchmark for Automation Mixed AADC Letters.
         Adjustment of First-Class Bulk Mail rates is not required while PRC Docket No.
         RM2010-13 is pending.

Note 2 - The Postal Act allows educational, cultural, scientific or informational mail
         product workshare discounts to exceed avoided costs; however, the Postal
         Service does not provide any data, studies, analyses or projections to evaluate
         whether the size of these discounts are reasonable or necessary.

Note 3 - PRC Order No. 536 concluded that Standard Saturation Mail occupies a
         unique market niche within Standard Mail, therefore, is not in a worksharing
         relationship with other groups of Standard Mail.




                                              19
Workshare Discounts Exceeding Avoided Costs               MS-AR-11-001




                      APPENDIX C: MANAGEMENT’S COMMENTS




                                              20
Workshare Discounts Exceeding Avoided Costs        MS-AR-11-001




                                              21
Workshare Discounts Exceeding Avoided Costs        MS-AR-11-001




                                              22
